                         U.S. Department of Justice
                                   Office of Public Affairs
FOR IMMEDIATE RELEASE                                                             Friday, May 27, 2011

                    Texas Resident Sentenced to 70 Months in Prison for
                $17 Million Scheme to Defraud the U.S. Export-Import Bank

WASHINGTON – An El Paso, Texas, resident was sentenced yesterday to 70 months in prison for his
role in a scheme to defraud the Export-Import Bank of the United States (Ex-Im Bank) of more than $17
million, announced Assistant Attorney General Lanny A. Breuer of the Criminal Division; Osvaldo L.
Gratacos, Inspector General of the Ex-Im Bank; and Manuel Oyola-Torres, Special Agent in Charge for
U.S. Immigration and Customs Enforcement’s (ICE) Homeland Security Investigations (HSI) in El Paso.

Jose Velasco, 40, was also sentenced by Judge Reginald Walton in U.S. District Court in Washington,
D.C., to three years of supervised release and was ordered to pay $17.9 million in restitution and $17.9
million in forfeiture. Velasco pleaded guilty on Sept. 24, 2010, to a criminal information charging him
with one count of wire fraud and one count of conspiracy to defraud the United States.

According to court documents, Velasco was the owner of Alamo Freight Forwarding, a company located
in El Paso that purported to be a freight forwarding company specializing in the export of heavy
equipment to Mexico. Velasco admitted that he and others conspired to defraud the Ex-Im Bank. From
April 2004 through November 2007, Velasco purported to act as a freight forwarder in approximately 13
loan transactions with various lending banks whose loans were insured or guaranteed by Ex-Im Bank.
The transactions involved a total of approximately $17.9 million. As part of the fraud scheme, Velasco
and others prepared and submitted false documents to Ex-Im Bank falsely stating that goods and
equipment had been purchased and shipped to buyers in Mexico. Velasco and others prepared false
commercial invoices, bills of sale, bills of lading, and false Mexican Customs documents called
“Pedimentos.” According to court records, all of the fraudulent loans in which Alamo Freight
Forwarding was involved subsequently defaulted, causing Ex-Im Bank to pay claims losses to the lending
banks in the amount of $17.9 million.

The case is being prosecuted by Senior Trial Attorney Peter B. Loewenberg and Senior Litigation
Counsel Patrick Donley of the Criminal Division’s Fraud Section. The case is being investigated by the
Ex-Im Bank Office of Inspector General and ICE HSI in El Paso.

11-696                                                                            Criminal Division

 
